<html>
<title> - NOMINATIONS OF DEBORAH TAYLOR TATE AND MICHAEL J. COPPS TO BE COMMISSIONERS OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 109-319]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-319
 
     NOMINATIONS OF DEBORAH TAYLOR TATE AND MICHAEL J. COPPS TO BE 
              COMMISSIONERS OF THE FEDERAL COMMUNICATIONS 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
26-425                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 13, 2005................................     1
Statement of Senator Inouye......................................     3
Statement of Senator Pryor.......................................    25
Statement of Senator Stevens.....................................     1
Statement of Senator Sununu......................................     4

                               Witnesses

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     2
    Prepared statement...........................................     3
Copps, Hon. Michael J., Renominated to be Commissioner of the 
  Federal Communications Commission..............................     9
    Prepared statement...........................................    10
    Biographical information.....................................    11
Tate, Deborah Taylor, Nominated to be Commissioner of the Federal 
  Communications Commission......................................     4
    Prepared statement...........................................     6
    Biographical information.....................................     6

                                Appendix

Frist, Hon. William H., U.S. Senator from Tennessee, prepared 
  statement......................................................    31
Response to Written Questions Submitted by Hon. Olympia J. Snowe 
  to Deborah Taylor Tate.........................................    31


     NOMINATIONS OF DEBORAH TAYLOR TATE AND MICHAEL J. COPPS TO BE 
                     COMMISSIONERS OF THE FEDERAL 
                       COMMUNICATIONS COMMISSION

                              ----------                              


                       TUESDAY, DECEMBER 13, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:31 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The Committee will come to order, please. 
This morning the Committee will hear from two of the 
President's nominees for the Federal Communications Commission. 
Deborah Tate is the Director of the Tennessee Regulatory 
Authority and has been a senior staffer to two former Tennessee 
Governors, including Senator Alexander who is here. Senator 
Frist has also submitted a statement for the record in support 
of her nomination. Michael Copps has been renominated to a 
second term on the Commission. Those of us at the top of the 
dais here know Michael from his days as Senator Hollings' 
Administrative Assistant.
    We all know how fast the telecommunications landscape is 
changing. Many of today's technologies were never anticipated 
when we passed the 1996 Act. There are many issues that are 
still squarely in front of us: universal service, preserving 
universal service and bringing broadband to rural America, 
promoting competition and a healthy telecommunications 
industry, minimizing the regulatory burden on the 
telecommunications providers also.
    I've enjoyed meeting each of the nominees and we look 
forward to working with them on these and other issues when 
they are confirmed.
    Ms. Tate, I understand you have family with you today. 
Would you please introduce them for the Committee and for the 
record?
    Ms. Tate. Yes, sir. Thank you, Mr. Chairman, very much.
    The Chairman. You have to press a button there somewhere.
    Ms. Tate. Yes, sir. Thank you, Mr. Chairman, so very much. 
My family is with me: my husband Bill Tate, an attorney in 
Nashville, and my sons Will and Taylor Tate, and my daughter 
Carlton. Two of them are here in the midst of their college 
exams, so I appreciate very much your allowing them to be with 
me today.
    The Chairman. I heard from my youngest. She is in exams, 
too.
    Mr. Copps, would you introduce your family and supporters, 
please.
    Mr. Copps. Thank you, sir. Some of my family is here: first 
of all, my lovely wife Beth behind me. She is just recuperating 
from open heart surgery, but she is here and, as you can see, 
she is looking not only well but looking beautiful. Our two 
daughters are here: Betsy Von Hagen, who is the mother of our 
two little red-headed boys, one of whom is here today, our 
grandson Sam; our daughter Clair, a senior in high school, is 
here; also my namesake and middle son Michael is here, and this 
week he is enjoying the announcement of his promotion to Senior 
Director of Membership at the Community Associations Institute. 
Absent are my son Robert, who is an attorney in New York City--
he is up there billing hours so he can afford to live in New 
York City, and that is why he is not here today--and our 
youngest son, Will, who is in the midst of final exams at Mary 
Washington University. Thank you for allowing me the 
opportunity to introduce them.
    The Chairman. As a father of six, thank you for bringing 
them.
    Senator Inouye.
    Senator Inouye. No, I yield to Senator Alexander.
    The Chairman. Senator Alexander, Senator Inouye yields to 
you.

              STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. Thank you, 
Senator Inouye. I have now been yielded to by the--that is the 
maximum amount of seniority I could possibly be yielded to in 
the U.S. Senate. I thank you for that.
    Mr. Chairman, I will be brief but I hope sincere in my 
remarks about Debi Tate. I would like to take credit for her 
appointment, but I cannot. I did not find President Bush 
somewhere and say: Be sure and appoint Debi Tate. She earned 
his respect the same way she earned mine and that of many, many 
others.
    She began work with me in my first term as Governor of 
Tennessee more than 20 years ago as a lawyer on our staff. She 
earned the respect of Governor Sundquist, who is here, one of 
my successors as Governor of Tennessee. She is Director of the 
Tennessee Regulatory Authority, of which she has been Chairman. 
She earned the respect of her colleagues there.
    She earned the respect of her colleagues around the country 
and at various times she has been a member of the Federal-State 
Joint Board on Advanced Telecommunications Services, the 
National Association of Regulatory Utility Commissioners, and 
many other similar organizations.
    She is here, as you have already noted, with her family. I 
would like also to acknowledge the presence of Bart Gordon, 
Congressman from Tennessee, who is dean of our Tennessee 
delegation, and I am delighted that he has taken the time to 
come.
    Let me simply say that I found Debi to be smart and 
thoughtful. So far as I know she would bring to the Commission, 
if we should choose to confirm her, no particular agenda. She 
knows to listen carefully and that these issues are complex. I 
would expect her, if she is confirmed, to be an excellent 
member of the Commission. I am glad the President nominated her 
and I appreciate your giving me an opportunity to come here and 
introduce her.
    Thank you.
    [The prepared statement of Senator Alexander follows:]

Prepared Statement of Hon. Lamar Alexander, U.S. Senator from Tennessee

    Mr. Chairman, Members of the Commerce Committee, thank you for the 
opportunity to be here today to speak in support of the nomination of 
Deborah Taylor Tate to serve as a Commissioner on the Federal 
Communications Commission. I have known Debi since I served as Governor 
of Tennessee, and I believe that President Bush has made a superb 
choice to help us navigate the complicated communications questions 
that we will face in the next few years.
    Debi has devoted a lifetime of service to the State of Tennessee, 
but our state's loss with this nomination is the nation's gain. She is 
a graduate of Middle Tennessee State University and Vanderbilt Law 
School. She served as a policy advisor on numerous issues to me when I 
was Governor and as a mental health and juvenile justice policy advisor 
to Governor Don Sundquist. She currently serves as a Director of the 
Tennessee Regulatory Authority after serving as Chairman in 2003-2004.
    Debi's work at TRA has provided her with a valuable understanding 
of regulatory issues that has led to her serving on numerous national 
advisory bodies. She has been a member at various times of the Federal-
State Joint Board on Advance Telecommunications Services, the National 
Association of Regulatory Utility Commissioners, the Washington Action 
Committee, and the American Public Gas Association Security and 
Integrity Foundation Board of Directors Advisory Board.
    In addition, Debi finds time to volunteer for numerous 
organizations with a particular emphasis on children and women's 
issues. She and her husband William have also raised three children--
Will, Taylor, and Cacky--who are all following in their parents' 
successful footsteps.
    I take the time to emphasize Debi's broad background and experience 
because I believe it will be an asset in taking on the job of FCC 
Commissioner. The last decade has seen an explosion in the complexity 
of telecommunications regulation. The Internet has changed the way we 
all live our lives, and it has blurred the lines that have 
traditionally separated telephones, television, and other technologies. 
More than ever, regulatory decisions regarding these technologies can 
now have an effect on education, health care, homeland security, and 
defense. Even more significantly, regulatory decisions can have an 
effect on tax policy, which can have serious consequences for the 
ability of the federal, state, and local governments to set and adhere 
to their budgets.
    Debi's breadth of experience across a wide range of issues and her 
insight at both the national, state and local level will make her an 
invaluable asset to the FCC as it navigates these increasingly complex 
issues. If confirmed, the next few years of communications regulation 
will be in good hands.
    Mr. Chairman, it is a pleasure to be able to be here today to speak 
in support of a good public servant and a good friend. I thank the 
Committee for the opportunity, and I urge the Committee to support the 
nomination of Deborah Taylor Tate to the FCC.

    The Chairman. Thank you very much.
    Congressman Gordon, did you wish to make a statement at 
all?
    Mr. Gordon. Amen.
    The Chairman. Thank you.
    Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I am pleased to introduce 
Commissioner Michael Copps as a nominee to serve a second term 
on the FCC. I would like to welcome him back to the Committee. 
As you indicated, he spent a significant part of his career 
working in the Senate, and he continues to work closely with 
the Members of this Committee.
    It was my pleasure to join you, Mr. Chairman, in 
recommending that the President nominate Commissioner Copps for 
a second term. During his first term he demonstrated that he is 
highly qualified and a very able Commissioner, and he has taken 
seriously his duties to further the public interest for the 
benefit of the American people. Commissioner Copps has been a 
strong and outspoken voice on issues critical to our country's 
future. He has recognized that having the most advanced 
communications networks and capabilities is critical to 
America's future economic competitiveness. He has worked to 
ensure that all Americans have comparable access to 
communications services, including those who live in rural 
America and, most importantly, on tribal lands and in the inner 
cities, those with disabilities and those who are economically 
disadvantaged and others who are at risk of being left behind.
    Commissioner Copps has pushed the FCC to concentrate on the 
challenge of broadband deployment so that America remains the 
technological leader in the global marketplace. He has also 
focused attention on the need to ensure safety of our citizens 
through robust, reliable, and redundant communications. 
Commissioner Copps has worked tirelessly to bring attention to 
the large issues concerning the role of media in our country.
    When the FCC addressed media consolidation, Commissioner 
Copps reached out to his fellow citizens by holding public 
meetings across this country. For more than 25 years, 
Commissioner Copps has dedicated himself to public service. He 
has worked to build a closer relationship between the public 
and private sectors to tackle the challenges we face.
    I join all of my colleagues in thanking him for his 
commitment in serving the American people and I am pleased to 
support him for another term as an FCC commissioner. I must 
also say and I join all in welcoming Director Deborah Tate 
before the Committee today, and I thank Senator Alexander for 
being here to introduce her.
    Thank you very much, sir.
    The Chairman. Thank you very much.
    Senator Sununu, do you have an opening statement?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. We can for the sake of expediency assume 
that I gave a 10-minute very eloquent opening statement and 
proceed right to the testimony of the witnesses. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Ms. Tate, do you have a statement to make?
    Ms. Tate. Yes, sir, Mr. Chairman.
    The Chairman. Would you pull that mike toward you, please.

STATEMENT OF DEBORAH TAYLOR TATE, NOMINATED TO BE COMMISSIONER 
                 OF THE FEDERAL COMMUNICATIONS 
                           COMMISSION

    Ms. Tate. Yes, sir. Mr. Chairman, Co-Chairman Inouye, 
Members of the Committee: It is indeed a privilege to be here 
and have this opportunity to appear before you today. Please 
let me thank Senator Alexander for being here today, as well as 
Congressman Gordon, and your former colleague, Governor Don 
Sundquist. I also appreciate so very much the kind remarks that 
the Majority Leader, Bill Frist, put into the record. And I am 
of course very proud to have my family here today. I would not 
be here without their blessing.
    I am of course, as anyone who sits in this seat, so deeply 
honored to have been nominated by the President of the United 
States, President Bush, for this position at the FCC. Over the 
past few weeks I have had the opportunity to meet many of the 
Members of the Committee and talk with you about issues of 
concern and interest. Of course, if confirmed, I look forward 
to continuing those discussions.
    Before we begin to hear about the concerns that you may 
have this morning, I do want to express that if I am confirmed, 
I will perform to the best of my abilities. I will bring a 
commitment to study the issues and to find sound, practical, 
reasonable solutions that I believe are best for our country.
    As a sixth generation Tennessean, I have very deep roots 
that run in the rural part of our state. So I am especially 
interested in those issues that are affecting rural Americans 
and, if confirmed, I hope to continue to be a voice for 
families and consumers, as I have been in Tennessee, on the 
FCC.
    In many ways I feel like most of my entire life has been 
spent in preparation for this position. Having spent most of 
the past 20 years in public service, as Senator Alexander said, 
as an aide for two governors, the head of a state health 
administrative agency, and then most recently as both the 
Chairman and Director of the Tennessee Regulatory Authority. I 
believe that I bring the talent, the training, and the energy 
necessary to succeed as a Commissioner at the FCC. With your 
support and approval, I can assure you that I will bring a 
spirit of consensus and bipartisanship to the Commission, as I 
have with my Tennessee colleagues; a willingness to build on 
what the Chairman and the other Commissioners have already 
begun.
    The communications landscape in our country is indeed 
changing. There are unprecedented changes. We are seeing a new 
world, a new digital age. Some liken it to the industrial age, 
the printing press, or even putting a man on the Moon--major 
innovations which have changed and shaped our world and country 
forever. If confirmed by the Senate, I pledge my steadfast 
commitment to work closely with you, with Congress, to tackle 
the complex issues that are facing America in this new digital 
age.
    As public servants, I believe we are all called to build an 
America full of promise and opportunity, to improve our 
economy, to help create more jobs and investment, to boost 
family incomes, and to try and make a positive difference in 
the lives of every single American.
    Again, I am so very honored and so very grateful to you for 
this opportunity to appear here today. Of course, I am happy to 
answer questions, and thank you very much.
    [The prepared statement and biographical information of Ms. 
Tate follow:]

Prepared Statement of Deborah Taylor Tate, Nominated to be Commissioner 
                of the Federal Communications Commission

    Mr. Chairman, Co-Chairman Inouye, Members of the Committee, it is a 
privilege to have the opportunity to appear before you today.
    Please permit me a moment to thank my mentor and friend, Senator 
Alexander, for his wonderful introduction; Majority Leader Frist for 
his thoughtful remarks for the record; and my family, sitting behind me 
today--my husband, Bill; my son, Will; my son Taylor; and my daughter, 
Carlton--for their love and support.
    I am deeply honored to have been nominated by President Bush to 
serve as a Commissioner at the Federal Communications Commission. Over 
the past few weeks, I have had the pleasure of talking to many members 
of the Committee and I want to thank all of you for taking the time to 
share your thoughts about communications policy and the FCC with me. If 
confirmed, I look forward to continuing our discussion.
    I look forward to discussing telecommunications issues that concern 
you this morning. But before we do so, I wanted to express that, if 
confirmed, I will perform my duties to the best of my ability. I will 
bring a commitment to study the issues and find sound, reasonable 
solutions that are best for our country. As a 6th generation 
Tennessean, with deep roots in the rural part of our country, I am 
especially interested in issues that affect rural Americans, and if 
confirmed, I will work to be a voice for families and consumers on the 
Commission.
    In many ways, I feel that my entire life has been spent in 
preparation for this job. Having spent most of my professional life in 
the public sector, as a gubernatorial aide for two different governors, 
head of a state administrative agency, and, most recently, as Chairman 
and Director of the Tennessee Regulatory Authority, I believe I bring 
the talent and energy necessary to succeed as a Commissioner at the 
FCC. And, with your support and approval, I will bring a spirit of 
consensus and bi-partisanship to the Commission; a willingness to build 
on what Chairman Martin and the other Commissioners have begun at the 
FCC.
    The telecommunications landscape is undergoing unprecedented 
changes. Indeed, we are all witnessing a new world--a new digital age. 
Some liken it to the industrial revolution; the printing press; major 
innovations which shaped and changed our world forever. If confirmed, I 
pledge my steadfast commitment to work closely with Congress, Chairman 
Martin, and my fellow commissioners to tackle the complicated issues 
facing America in the new digital age.
    As public servants, I believe we are here to build an America full 
of promise and opportunity; to improve our economy; to create more 
jobs; to boost family incomes; and to make a positive difference in the 
lives of every single American.
    Again, I am so very grateful and humbled for the opportunity to 
appear before you today, and I would be happy to answer any questions 
you might have. Thank you.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Deborah 
Taylor Tate.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: 11/9/05.
    4. Address (List current place of residence and office addresses):
    Residence: information not released to the public.
    Office: Tennessee Regulatory Authority, 460 James Robertson 
Parkway, Nashville, TN 37243.
    5. Date and Place of Birth: 7/30/56--Columbia (Maury County), 
Tennessee.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: William Howard Tate, Partner: Howard, Tate, Sowell, 
        Wilson and Boyte, 150 Second Avenue N., Nashville, TN 37201.

        Children: William H. Tate, Jr. (22), Taylor McLean Tate (20), 
        Carlton McLendon Tate (18).

    7. List all college and graduate degrees. Provide year and school 
attended: University of Tennessee-Knoxville (B.A. 1977; J.D. 1980); 
also attended Vanderbilt University Law School.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated: Director, 
Tennessee Regulatory Authority (2003-present), Chairman (2003-2004); 
Director, State and Local Policy Center, Vanderbilt Institute for 
Public Policy Studies; Senior Staff to former Governor Lamar Alexander 
and Don Sundquist; Executive Director, Health Facilities Commission.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: FCC Federal State 
Board on Advanced Services (2003-present); Census Information Center, 
Director, located at Vanderbilt Institute for Public Policy Studies 
(state advisory board to U.S. Census Bureau, CIC Program (2000-02)
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: 
Centerstone, Inc. (mental health center)--Board of Directors, Chairman; 
Family and Children's Services, Board and Executive Committee: 
Director, State and Local Policy Center (VIPPS); Tennessee Voices for 
Children-Board of Directors; Renewal House, Inc.-Board of Directors/
Advisory Board;
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Westminster Presbyterian Church--over 20 years.
        Nashville Bar Association--over 10 years.
        Nashville Bar Foundation--3 yrs.
        Lawyers Association for Women--over 10 years.
        Tennessee Pediatric Foundation--1 year.
        Tennessee Tomorrow, Inc.--1 year.
        Richland Country Club--over 20 years.

    12. Have you ever been a candidate for public office? Yes, 
Tennessee General Assembly, House of Representatives (1986).
    12a. If so, indicate whether any campaign has any outstanding debt, 
the amount, and whether you are personally liable for that debt. None.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        2002--Alexander for Senate $1,000.
        1999--Alexander for President $1,000.
        1997--Campaign for New American Century $500.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: TN Pediatric Society 
Foundation Board; Nashville Bar Foundation Fellow; National 
Philanthropy Day (Volunteer award); ``Invisible Child Award,'' NAMI and 
Mental Health Board awards for service; Athena (outstanding women) 
nominee, Junior League Sustainer of the Year.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        a. FCC--Individual comments, NPRM: IP-enabled services (March 
        04).

        b. OP-Ed: ``VOIP Technology''--Tennessee newspapers 
        (statewide).

        c. ``Ma Bell's Newest Grandchild: VOIP'' (April 04).

        d. Tennessee Bar Journal: ``VOIP--A Case for Practical 
        Federalism'' (September 05).

        e. Panelist, ``The Role of States and Cities in Regulating the 
        Internet,'' Advisory Committee to Congressional Caucus, 
        Washington, D.C. (4/29/05).

        f. Panelist: VOIP Forum for Senate/House Committee Staff, 
        Washington, D.C. (3/04).

        g. Moderator: ``All Politics is Local: Broadband,'' National 
        Summit on Broadband, Washington, D.C. (10/04).

        h. Tennessee Telecommunications Association, Nashville, TN (8/
        02).

        i. Numerous civic club speeches, interviews during 2003-2004 as 
        Chairman, TRA.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a nongovernmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

        a. State of Tennessee Consolidated Retirement.
        b. State of Tennessee 401 K Plan (9/30/05)--Fidelity Funds.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? Yes, 
Centerstone, Inc.
    2a. If so, please explain: Nonprofit mental health organization 
Board of Directors.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Spouse Investments: 
AT&T, Lucent Technology, Nortel Networks, Comcast, Motorola, Verizon 
Communications, Nokia.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None other than in my 
official capacity as a Director of the TRA.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.

        a. Encouraging Tennessee delegation to support various 
        increases to low income energy assistance/LIHEAP.

        b. Encouraging Tennessee delegation to support/continue various 
        Welfare to Work/TANF proposals.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: In accordance with law and regulation, my spouse and I will 
comply with any potential conflict of interest requirements including 
those involving divestiture.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? To the best 
of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? To the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much.
    Unless someone has an objection, let us hear from Dr. Copps 
next, please.

      STATEMENT OF HON. MICHAEL J. COPPS, NOMINATED TO BE 
          COMMISSIONER OF THE FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. Copps. Mr. Chairman, Mr. Co-Chairman, Senator Sununu: 
Thank you for granting us this hearing so soon after our 
nominations. On a more personal level, let me thank you for the 
many courtesies you have extended to me during my tenure at the 
Commission.
    Mr. Co-Chairman, your warm and generous introduction and 
your support touch me in a very deep and a very fundamental 
way, coming from one of America's true heroes. It is just 
beyond anything I ever expected when I first came to Washington 
so many years ago. Thank you very much, and thank you, Senator 
Stevens, for your support also.
    It is always good to come home to the Senate. Fifteen years 
working here imparted a deep and lasting loyalty in me to this 
institution and to this Committee. Those years, from 1970 to 
1985, working with your friend and mine Fritz Hollings, 
instilled in me great pride in the honorable calling that is 
public service.
    During my 4-plus years as a Commissioner, I have worked to 
build an ongoing and cooperative relationship with each of you, 
with the Committee, and your Congressional colleagues. I have 
sought to implement the laws that this Congress passed with as 
thorough an understanding of Congressional intent as I can 
muster. I look forward if confirmed to a second term continuing 
to build on this close relationship with you.
    Serving as an FCC Commissioner, being on the front lines as 
the telecommunications revolution transforms our lives and 
remakes our world, has been an exciting, challenging and 
inspiring experience. There is always a sobering part to it and 
that is that it is a high public trust and a lot rides on how 
we perform, and we need always to remember that communications 
is the business of every American and every American is 
affected by what the Commission does.
    My objective as an FCC Commissioner is to help bring the 
best, most accessible and cost effective communications system 
in the world to all of our people, and I always underline that 
word ``all,'' whether they live in rural areas or tribal lands 
or the inner city, whether they have limited incomes or 
disabilities, whether they are school children or rural health 
care providers. I believe that Americans progress together or 
we progress not at all, and each and every citizen of this 
great country needs to have access to the wonders of advanced 
communications and information if he or she is going to succeed 
in the 21st century. I think today having access to those 
advanced communications is every bit as important, maybe more 
so, than having access to basic telephone services was in the 
century just past.
    I know that many of the issues now before the Commission 
are difficult and complex, and I do not believe that any of us 
at the Commission has a silver bullet solution to all the many 
challenges that confront us. I find always that a little 
humility as we wade into these discussions at the Commission 
always helps. But I do believe that my colleagues are working 
collegially now to reach agreements that benefit consumers, 
foster innovation, and encourage investment in this fast-moving 
environment.
    I also believe that the FCC can serve an even more 
important role as a resource for Congress as you look at the 
statutes and how they are accommodating new marketplace 
developments and what changes may be necessary. We are the 
expert agency on communications, staffed by incredibly 
competent public servants. I hope you will look to the 
Commission more and more and even push us, to provide the data 
and the analysis and tee up the options on various suggestions 
that have been made for changing the Telecom Act. There is no 
reason why we cannot do that. It is not something we have to 
vote on or whatever at the Commission. We ought to just be 
churning out these expert papers: If you go down this road on 
contribution methodology, that road on something else, here are 
the costs and benefits. I think that would help and I think an 
independent regulatory agency really has a responsibility to 
perform that role.
    I look forward if confirmed to working with Chairman 
Martin, the other commissioners--Commissioner Adelstein is here 
today and my fellow Commissioner-designate Debi Tate--to 
implement the vision enunciated by Congress, and I pledge to 
continue working tirelessly, inclusively, and with the best 
judgment I can garner to get that job done.
    I do put a high value on public service. Most of the time I 
enjoy it. But, as you Senators know far better than me, it can 
be demanding, especially as those demands fall on the members 
of one's own family, and that is where they most often fall. So 
I am grateful to each member of my family for their support and 
patience and encouragement over quite a few years in public 
service. I have enjoyed a lot of benefits and a lot of 
blessings in this life, but the family I introduced is the 
sweetest reward of all.
    So I thank you for having us up here today. Thank you for 
this hearing. I will be happy to try to answer any questions 
you may want to ask.
    [The prepared statement of Mr. Copps follows:]

     Prepared Statement of Hon. Michael J. Copps, Nominated to be 
         Commissioner of the Federal Communications Commission

    Chairman Stevens, Co-Chairman Inouye, distinguished Members of this 
Committee, thank you for granting us this hearing so soon after our 
nominations. On a more personal level, allow me to thank you for the 
many courtesies you have extended to me during my tenure at the FCC.
    It's always good to come home to the Senate. Fifteen years working 
here imparted a deep and lasting loyalty in me to this institution and 
this Committee. Those years from 1970 to 1985, working with your friend 
and mine, Senator Fritz Hollings, instilled in me great pride in the 
honorable calling that is public service. During my four-plus years as 
a Commissioner, I have worked to build an ongoing and cooperative 
relationship with each of you, the Committee and your Congressional 
colleagues. I have sought to implement the laws Congress passed, with 
as thorough an understanding of Congressional intent as I can gather. I 
look forward, if confirmed for a second term, to continuing to build on 
this close relationship with you.
    Serving as an FCC Commissioner--being on the front lines as the 
telecommunications revolution transforms our lives and remakes our 
world--has been an exciting, challenging and inspiring experience. The 
sobering part of being a Commissioner is that the office is a high 
public trust. A lot rides on how we perform, and we need always to 
remember that communications is the business of every American and 
every American is affected by what the Commission does. Every American 
has a vested interest in how the Commission performs. Everyone is a 
stakeholder, and I try to think about that every day.
    I have tried during my time at the Commission to give meaning to 
the public interest by promoting the core values Congress gave us in 
the Communications Act--things like promoting the safety and security 
of the people through reliable communications, a challenge brought home 
to us by 9/11 and also by the ravages of nature's hurricanes this past 
summer; values such as preserving and advancing universal service so 
that every American can benefit from the liberating opportunities that 
new technologies and services provide; values like developing more 
competition to benefit consumers and to spur innovation; and values, in 
the media, supporting localism, diversity, competition and family-
friendly programming--things this Committee has worked hard to 
preserve.
    Mr. Chairman, my objective as an FCC Commissioner is to help bring 
the best, most accessible, and cost-effective communications system in 
the world to all of our people--whether they live in rural areas, on 
tribal lands or in our inner cities, whether they have limited incomes 
or disabilities, whether they are schoolchildren or rural health care 
providers. I believe that Americans progress together or we progress 
not at all. Each and every citizen of this great country needs to have 
access to the wonders of advanced communications and information if he 
or she is going to succeed in the 21st century. Today, having that 
access is every bit as important--maybe more so--than having access to 
basic telephone services was in the century just past.
    I know that many of the issues now before the Commission are 
difficult and complex. I don't believe that any of us at the Commission 
has a silver bullet solution to all the many challenges that confront 
us, and I find that a little humility as we wade into these discussions 
always helps. But I do believe that my colleagues and I are working 
collegially to reach agreements that benefit consumers, foster 
innovation and encourage investment in this fast-moving, paradigm-
shifting environment.
    I also believe that the FCC can serve as even more of a resource 
for Congress as you look at how the statute is accommodating new 
marketplace developments and what changes may be necessary. We are the 
expert agency on communications, staffed by incredibly competent public 
servants, and I hope you will look to us more and more--and even push 
us--to provide the data and analyses you need, and to produce more 
options for you, teeing up the pros and cons of different ideas to deal 
with the communications challenges confronting our country. I believe 
that an independent regulatory agency has an obligation to provide you 
with that kind of input.
    I look forward, if confirmed, to working with Chairman Martin, the 
other Commissioners, and my fellow Commissioner-nominee Debi Tate, to 
implement the vision enunciated by Congress. I pledge to continue 
working tirelessly, inclusively, and with the best judgment I can 
garner to get this job done.
    I put a high value on public service, and, most of the time, I 
enjoy it. But as you Senators know better than me, it can be demanding, 
especially as those demands fall on the members of one's own family, 
and that is where they most often fall. I am grateful to each member of 
my family for their support, patience and encouragement over quite a 
few years in public service. My lovely and wonderful wife Beth and I 
have been blessed with five great children--three of whom are here 
today. They are our pride and joy and life's sweetest reward.
    Mr. Chairman, this concludes my brief statement. Thank you for your 
attention and for your many kindnesses through the years.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Michael Joseph Copps.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: November 9, 2005.
    4. Residence: information not released to the public. Office: 12th 
Street, SW., Room 8-A302, Washington, DC 20554.
    5. Date of Birth: April 23, 1940. Place of Birth: Milwaukee, 
Wisconsin.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage):

        Spouse: Elizabeth Miller Copps, Church Secretary, St. Mary's 
        Catholic Church, 310 Duke Street, Alexandria, VA 22314.

        Children: Robert Edmund Copps, 34; Elizabeth Copps Von Hagen, 
        31; Michael Albert Copps, 27; William Thomas Copps, 19; Claire 
        Louise Copps, 17.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A. Wofford College, 1963.
        Ph.D. University of North Carolina at Chapel Hill, 1967.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Administrative Assistant, U.S. Senator Ernest F. Hollings, 
        1974-1985.
        Deputy Assistant Secretary of Commerce, 1993-1998.
        Assistant Secretary of Commerce for Trade Development, 1998-
        2001.
        Commissioner, Federal Communications Commission, 2001-present.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: None.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Westgrove Citizens Association, Alexandria, VA, 1976-present. 
        My neighborhood community association. This group has no 
        membership restrictions.

        AARP (American Association of Retired Persons), 1995-present. 
        This group has no membership restrictions.

        St. Mary's Catholic Church, Alexandria, VA, 1976-present. 
        Parish member. No membership restrictions.

        St. Mary's Home and School Association, 1977-2002.

        University of North Carolina Graduate School Advisory Board, 
        1997-1998. Unpaid advisory position. Resigned after being 
        appointed Assistant Secretary of Commerce. This group has no 
        membership restrictions.

        Gonzaga High School Fathers' Club, Washington, D.C., 2000-2004 
        (while son attended). This group has no membership 
        restrictions.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Hollings for Senate Committee, $1000 in 1992.
        Hollings for Senate Committee, $1000 in 1998.
        DNC Federal Account, $1000 in 2000.
        DNC, $500 in 2004.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Honorary Doctorate of Laws, Wofford College, Spartanburg, SC 
        2005.
        Phi Beta Kappa, Honorary Academic Fraternity.
        Pi Gamma Mu, Honorary Social Science Fraternity as college 
        undergraduate.
        NCM (New California Media) 2005 Ethnic Media Appreciation 
        Award.
        Common Sense Media Award for Outstanding Contribution to Kids & 
        Family Media.
        2003 Communications ``Good Scout'' Award.
        Alliance for Community Media Director's Choice Award.
        2005 American Spirit Award from The Caucus for Television 
        Producers, Writers & Directors, 2005.
        SHHH (Self Help for the Hard of Hearing) 2005 
        Telecommunications Access Award.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Speeches & Remarks: As an FCC Commissioner, an important part of my 
responsibility has been to deliver remarks and speeches to a variety of 
audiences on a broad range of communications issues. These 
presentations no doubt number in the hundreds. I retain copies of many 
of my more formal presentations and some of these are also available on 
the FCC web site.
    Articles, Columns, Other Publications:

        1. Michael J. Copps, As Broadcast Decency Wanes, Feds Stand 
        Ready to Act, USA Today, February 4, 2002, at 15A.

        2. Michael J. Copps, Crunch Time at the FCC, The Nation, 
        February 3, 2003, at 5.

        3. Michael J. Copps, Battle to Control Internet Threatens Open 
        Access, San Jose Mercury News, December 15, 2003.

        4. Michael J. Copps, The ``Vast Wasteland'' Revisited: Headed 
        for More of the Same?, 55 Fed. Comm. L.J. 473 (2003).

        5. Michael J. Copps, Corporate Media and Local Interests: 
        Downsizing the Monster, San Francisco Chronicle, July 19, 2004.

        6. Michael J. Copps, Homeland Security Is Job One, Broadcasting 
        & Cable, August 16, 2004, at 36.

        7. Michael J. Copps, Show Me the Convention, N.Y. Times, August 
        30, 2004, at A19.

        8. Michael J. Copps, Consolidation and Obligation, Broadcasting 
        & Cable, September 27, 2004, at 68.

        9. Michael J. Copps, A Chance to Weigh In on Media 
        Consolidation, Minneapolis-St. Paul Star Tribune, December 9, 
        2004.

        10. Michael J. Copps, Where Is the Public Interest in Media 
        Consolidation?, in The Future of Media 117 (Robert McChesney, 
        Russell Newman & Ben Scott eds., 2005).

        11. Michael J. Copps, Disruptive Technology . . . Disruptive 
        Regulation, 2005 Mich. St. L. Rev. 309 (2005).

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    I testified three times before Congress as an employee of the 
American Meat Institute, (Arlington, VA):

        July 12, 1990--Subcommittee on Agricultural Research and 
        General Legislation, U.S. Senate Committee on Agriculture, 
        Nutrition and Forestry. Subject: U.S.-Canada Open Border 
        Agreement.

        March 13, 1991--Committee of Agriculture, House of 
        Representatives. Subject: Support of Fast-Track Trade 
        Negotiating Authority Extension.

        April 9, 1992--Subcommittee on Agricultural Research and 
        General Legislation, U.S. Senate Committee on Agriculture, 
        Nutrition and Forestry. Subject: U.S.-EU Trade Dispute.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a Commissioner at the FCC, I have been inevitably involved in 
implementing the communications statutes passed by Congress and in 
rule-makings and adjudications coming before the Commission. 
Additionally, I have tried to serve as a resource for this Committee 
and for Members of Congress on communications issues. I believe that it 
is part of the Commission's responsibility, as an expert agency in 
these matters, to provide information and options to Congress.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have no such conflicts of interest, nor do I envision any 
developing. Should one ever develop, however, I would immediately take 
whatever steps are required to eliminate the conflict as well as the 
appearance of any conflict of interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I have no material to add to the 
information already submitted.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes, insofar 
as the authority of the position to which I have been nominated can 
influence the actions of the agency.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, insofar as the authority of 
the position to which I have been nominated can influence the actions 
of the agency.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, I thank each one of you for your 
statements, very welcome statements as a matter of fact.
    Commissioner, we are pleased to see you here.
    Ms. Tate, during your time there at the Tennessee 
Regulatory Authority did you focus on any particular area of 
communications?
    Ms. Tate. Well, as you know, Mr. Chairman, we deal mostly 
with telecommunications, as opposed to the broader array of 
issues that the FCC deals with. But while there, obviously, I 
would like to answer the question, if I could, in terms of 
broader issues. I really tried to concentrate on outreach to 
consumers, education to consumers, holding forums, updating our 
website, for instance, to provide more information to 
consumers.
    Then the other, rather than an issue, but more a 
philosophical approach, and that is trying to bring consensus 
with the industry. I also have a background in mediation and I 
believe that this is one of those areas in which sometimes 
litigiousness actually gets in the way and, that when you bring 
people together and actually realize that we are after many of 
the same goals, and I believe that as we recognize these they 
are not partisan issues, they are really goals that we can all 
sit down and discuss. So I was fortunate enough to be able to 
work with the industry in Tennessee and feel that I was able to 
bring some consensus together with the industry.
    The Chairman. Thank you very much for that. Just thinking 
back, the two of us being from offshore states, years ago you 
used to see on television the ads which would say: These rates 
apply throughout the United States except Hawaii and Alaska. We 
sponsored the resolution requiring rate integration, which 
really led to the formation by the industry of a universal 
service fund. It was not a tax. It was the industry itself that 
broadened the scope of communications and took our two states 
into it through the universal service fund.
    So I ask you, Ms. Tate, in terms of your service there in 
Tennessee, did you deal with universal service? Are you 
familiar with the concept and have you formed an opinion about 
universal service?
    Ms. Tate. Well, absolutely. Have I formed an opinion? Yes. 
What an incredible, not just program, but national issue that 
it has been; to provide telephone service to all Americans at 
affordable rates. So yes, I have seen that. In fact, people in 
Tennessee are tired of hearing the story that I remember the 
day that my grandmother, the very last farm on a gravel road 
between Tennessee and Kentucky, got her phone. So I have seen 
what it is like to be in a home where there was no phone, where 
you were not connected to the outside world.
    Certainly I have not had the opportunity to see what 
``rural'' means in terms of your State, but this was a very 
rural existence on a farm that was far out in the country. So I 
remember the day that the phone got put in and how exciting it 
was to be connected to the rest of the world and to services 
that you needed.
    So yes, sir, I am very supportive of universal service and 
the concept.
    The Chairman. Thank you very much.
    Commissioner Copps, I spoke to Fritz Hollings just last 
week, and I know you were with him for a long time and that was 
a wonderful statement you made. We are going to take you up on 
that offer to work with the Congress, because if the Congress 
will listen to me we will modify the Telecommunications Act of 
1996 to become the Communications Act of 2006.
    Can you tell us, do you have any specific initiative that 
you would like to follow, pursue, in your coming term at the 
Commission?
    Mr. Copps. Well, I do, and I think we have already talked 
about some of them. If I really had to prioritize and try to 
generalize what we need to do, let me mention one thing in 
telecommunications, maybe one thing in media, and one thing 
about how this Commission runs that I think could use our 
attention and the attention of the Congress. There have been 
lots of suggestions for changing the Act. Universal service is 
so central to the future of this country, whether you go out on 
the tribal lands and see the digital divide that exists out 
there or you go to Aniak or Manokotak or Levelock in Alaska and 
see how removed these people are from the wonders of 
communications, and that divide is just going to get wider and 
wider unless we can make universal service really serve all of 
these people and bring opportunity to them.
    So I think we have got to fix that system. We have got to 
get the contribution methodology right, and also deal with 
distribution, where it is going.
    Then I think we need some guidance from the Congress on 
what is it that is meant by ``universal service.'' I think I 
understand what the intent of the Telecommunications Act is. I 
think it talks about advanced telecommunications and I think it 
wants me to be working to get advanced telecommunications to 
all Americans. But I do not know that everybody quite agrees 
with my interpretation.
    So I think there is a need for Congress to make clear where 
advanced telecommunications and where broadband fits into the 
21st century and how do all of these new technologies that are 
coming along--and Senator Sununu and I have talked about this--
do they have some obligations that attend them, as obligations 
attended the telephone system in the past century? If we are 
going to communicate in a new way, do consumers have a right to 
expect consumer protection, universal service, homeland 
security, disabilities rights and other protections? We really 
have to make that accommodation and that is a huge, huge 
challenge. So I guess that would be my telecommunications 
emphasis.
    Media, as you know, is near and dear to me and close to my 
heart. I am very worried about the extent of media 
concentration in the United States of America. I do not oppose 
all mergers and all acquisitions, but I think we need to look 
at them more closely and I think the rules on ownership have to 
be tightened. The previous Commission under the previous 
chairman tried to loosen the ownership rules and did it in what 
I thought was kind of a ludicrous way. The Third Circuit Court 
of Appeals agreed, turned those rules down, and sent them back 
to us.
    So I think a huge priority of the Commission in 2006 is to 
get this proceeding right, do it in the open, do it publicly, 
ask the right questions, do the studies, and reinvigorate 
broadcasting. I love broadcasters and I think the flame of the 
public interest burns brightly in many of their breasts. But it 
is hard for them in a consolidated media environment to 
survive. It is always ``the bottom line, the bottom line.''
    We have got to reinvigorate broadcasting with some public 
interest obligations. We have allowed licensing terms to go to 
8 years and to get it renewed, you send in a postcard and you 
are relicensed. It should be every 3 years or 5 years and I 
think that licensing should be conditioned upon the 
Commissioners at the FCC saying: That station is serving the 
public interest; you are doing a good job; you get the go sign, 
you get it for another 5 years. But we have just drifted too 
far from that.
    I get carried away on this issue, so I will just leave it 
there.
    Third, on FCC reform itself, I did not know we had a 
mediator here in the person of Debi Tate. Where were you a 
couple of years ago? We really could have used you then at the 
Commission. But you know when these mediation skills would 
really work: If we could sit down together at the Commission 
and talk together. We have an Open Meeting Act that precludes 
more than two Commissioners from ever sitting down and meeting 
together to decide issues. Nobody else works that way that I 
know of. Congress does not work that way. The court does not 
work that way. Even in my Catholic Church, the cardinals get 
together and select the new pope. So if it is good enough for 
Congress and good enough for the courts and good enough for 
Holy Mother Church, it ought to be good enough, I think, for 
the Federal Communications Commission.
    So I think we need to look at that. And you know what? 
Since we now have only three members at the Commission, I have 
spent the last 3 days trying to find out if I can talk to 
Jonathan Adelstein; can I go down the hall and talk to Chairman 
Martin? I am told they think I can, but we are still 
researching this. That is pretty sad. We have got three people 
down there at the FCC and we cannot talk to each other. So I 
think we need some help on that.
    So those would be three things that I would suggest for 
your attention and for our attention.
    The Chairman. We intend to address that last question. I 
think it is stupid that we cannot have more than one 
Commissioner here at a time. As a matter of fact, we may be 
violating the law right now.
    Let me say this. I think communications has gotten to the 
point where safety is involved. I am reminded of a young man 
who came to see me. He was one of two snow machiners who were 
going across an open plain, a really snow-covered plain near 
Mount McKinley, and he didn't expect to, but he hit a crevasse. 
He had a partner that did not hit it and suddenly he is down 
there about 30 feet below the surface and stuck. His skis are 
stuck in the sides of the crevasse.
    His partner is trying to figure out how to get to him; did 
not have a rope, did not have anything. Finally he remembered 
he had a cell phone. He pulled it out, turned it on, and dialed 
911, and 24 minutes later the National Guard pulled him out of 
there with a helicopter with a rope.
    Now, you have to hear those stories to understand what 
communications means to this country now, whether it is the 
single woman driving on a lonely road who has a flat tire and 
needs help or a person stuck in a crevasse. This is to me one 
of the basic rights of Americans now, is access to 
communications wherever you are.
    I look forward to working with you.
    Senator Inouye.
    Senator Inouye. Thank you very much.
    Senator Rockefeller could not be here with us and he 
regrets that very much, but he has asked me to ask a couple of 
questions. The first is to Ms. Tate and the question goes as 
follows. As you know, the FCC has a notice of proposed 
rulemaking in which it seeks public comment on changing E-
rate's current application-based program into a formula grant 
program. Do you support maintaining the system for allocating 
schools and libraries funding or do you support allocating 
funds to states in the form of a block grant. Ms. Tate?
    Ms. Tate. Thank you, Senator. Well, first of all I just 
have to say, and with former Governor Sundquist here, I want to 
say that through his leadership; Tennessee was the first state 
to have every single school connected through the E-rate funds. 
So we have seen first-hand what that has been able to do for a 
poor, somewhat rural, southern state. It has been wonderful to 
see first-hand.
    I know I had an opportunity to go to several schools while 
I was on the Governor's staff and to see what they were able to 
do in those classrooms and the libraries and how they would be 
able to connect to professors and experts all over the world in 
ways that would not have been possible without the E-rate 
funding.
    I have to be honest that I have not had an opportunity to 
review all of the comments and so I have not had an opportunity 
to study what some of the proposals may be. I am frankly not 
familiar with all of those proposals. However, like all of us, 
we want the funds to be spent well, we want to reduce any 
possible inefficiencies, and I think that the FCC has begun to 
look at some ways to be able to do that.
    So I am very supportive of the E-rate funds and what they 
have done for Tennessee and Tennessee school children. Thank 
you.
    Senator Inouye. Thank you very much.
    Commissioner Copps, I am certain you are aware that 67 
percent of Native households as compared to 94 percent for 
America, the rest of America. As far as Internet access, as the 
Chairman pointed out, less than 10 percent of Indian Country 
has access to Internet. So obviously there is some digital 
divide or gap.
    What do you propose to do as a Commissioner?
    Mr. Copps. Well, there is a serious problem here. I have 
been to Indian Country. I have seen that digital divide. I have 
seen the unemployment rate, which is just unbelievable. In some 
of these places, 60 or 70 or 80 percent of the people have no 
job. Communications can do so much, especially advanced 
communications if you can get them in there, to move Indian 
Country ahead.
    The first thing we have got to do is really treat Indian 
Country the way it should be through our trust relationship. I 
think it is important always to recognize that precious 
relationship. Then we have to do a better job of outreach. I 
think the Commission has tried to outreach and do a lot of 
meetings and sessions and seminars and things like that. But I 
think we need to do a lot more in the way of outreach and make 
sure that the folks in Indian Country know what is going on at 
the Commission and which decisions are being made that can 
affect them.
    Then we need to be serious about making sure that advanced 
telecommunications are getting deployed there. We have tried to 
do enhanced lifeline and enhanced linkup programs which help a 
little bit on universal service. But we have not scratched the 
surface of what we need to do. It is a glaring national problem 
and it is a glaring national embarrassment. We need to fix it 
and we need to fix it now.
    Senator Inouye. Thank you very much.
    I am certain both of you are aware that in recent weeks, 
under the guidance and leadership of Chairman Stevens, the 
Committee has been focusing on indecency and violent 
programming. In fact, yesterday we had a forum on that. Ms. 
Tate, how would you approach these issues? For example, 
yesterday the president of the cable companies announced that 
several cable companies will now establish family tiers. Do you 
have any views on that?
    Ms. Tate. Well, obviously as a mother, first of all, who 
has just raised three children, I share a lot of the concerns 
that I hear and that I have read about. I would just like to 
congratulate you and Chairman Stevens for scheduling these 
hearings.
    I was studying yesterday, so I did not have a chance to 
view all of the hearing. But what was incredible to me was that 
in just a short period of time several members of the industry 
had actually come forward and are engaging in a voluntary, I 
guess, code of conduct, and that they themselves are coming 
forward and saying that they want to participate rather than 
have regulations foisted upon them, I suppose.
    So I thought in a very short period of time there has been 
an awful lot of progress made, and I would just congratulate 
you on that. I think that it is important that the Commission 
enforces the law that we have and the rules and regulations 
that the FCC has implemented to interpret that. I think that I 
support the broadcasters' choice of not showing certain 
materials. Then of course, it harkens back to when I was 
growing up and you actually sat around the television and had 
family viewing hour and we watched ``The Wonderful World of 
Disney,'' I suppose, on Sunday night together.
    So I think a lot of progress is being made at this time.
    Senator Inouye. Do you believe that under the circumstances 
of voluntarily coming forth with programs of this nature that 
it would not be necessary for Congress to legislate decency?
    Ms. Tate. Well, Senator, I think I would want to see what 
the industry perhaps proposes specifically rather than trying 
to give you a specific answer. I am not sure exactly right now 
what their specific proposals are, but certainly I would want 
to review those, and also recognizing that these are issues 
that I believe the courts and the FCC have said are--that we 
need to have a contextual analysis for each one of these on a 
case-by-case basis. Is that something I could get back with you 
on?
    Senator Inouye. Oh, yes.
    Ms. Tate. Thank you, Senator.
    Mr. Copps. Can I comment on that?
    Senator Inouye. Please.
    Mr. Copps. I think the first statement I gave at the 
Commission was on indecency when I went there 4 years ago and 
it was kind of a lonely battle at the time to get most of my 
colleagues interested. Events since then have helped make that 
happen. But you have really brought the industry along in this 
Committee a lot farther than I was able to do. I have tried for 
3 or 4 years to get cable and the broadcasters and the 
associations to sit down and finally hash this out and give us 
something meaningful, like they used to have in the old 
voluntary codes of conduct years and years ago.
    So I am encouraged that they are stepping forth. I think we 
are in the early stages of this. I think it is going to require 
a lot of pressure. I do not think we are anywhere near the 
point where we can say: no, we do not need legislation, or we 
are not going to need legislation, So for now, I'd take the 
Ronald Reagan approach of ``trust but verify.''
    But this is not going to happen by itself. We have got to 
define what a family tier is. We have got to figure out how 
much it is going to cost and figure out if it is going to solve 
the problem. In the final analysis, it is not going to be the 
media or anybody else who decides if this fight against 
indecency is working. It is going to be the American people. If 
they have programs that are cleaned up, if they have the 
opportunity to enjoy family viewing, then we will have made 
progress.
     A 2005 Kaiser study reported that 70 percent of shows on 
television contain sexual content. So you can cite some 
examples where companies are doing things, but we are not there 
yet. We have a long way to go. Again, I would say trust but 
verify. Most importantly let us keep pushing.
    There are roles for everybody here. There is a role for 
families. There is a role for the Commission to do its job and 
enforce the law. When we put out statements saying, yes, this 
is indecent or, no, this is not indecent, we need to explain 
our reasoning. That is how you figure out what indecency is. We 
cannot sit there and write a guideline or a little book and 
say, here, Mr. Broadcaster, this is it. Like in law, you amass 
a history of jurisprudence and use that to set the parameters. 
That is not easy and it is not clean. It is kind of messy, but 
I do not know any other way to get there.
    So there is a role for the Commission and there is a role 
for Congress, and I am glad to see you leading.
    Senator Inouye. Commissioner Copps, how would you grade the 
performance of the Commission in combating gratuitous violent 
programming?
    Mr. Copps. D minus or close to an F. I do not think we have 
met the issue of violence at all. We might need some help from 
Congress there. The House asked for a report on violence over a 
year ago. I think under our new Chairman that report is now 
being produced. But we have not stepped up to the plate on 
that.
    On indecency generally, I would not give us good marks. The 
Commission is as much a cause for the state of indecency in 
this country as any broadcaster, because we ignored the law. We 
just turned the other way for years and years and years. So 
some in industry kept pushing the envelope. Nobody said 
anything, so they pushed the envelope farther.
    We made it hard for consumers to complain. They had to come 
with a tape or a transcript. Imagine my wife riding around in 
the carpool with seven kids in the van and she hears something 
on the radio that is indecent. How in the world is she supposed 
to record that or have an exact transcript? But that is what we 
demanded for years and years up until recently. I think that is 
getting better now, but I am not 100 percent convinced yet.
    So we have to have a good process. We have to do these 
things in a timely way and we have to establish the precedents, 
as I said before. We have done a lousy job of that 
historically. I think in the last year or so we have done much 
better, and I think I am encouraged that we are more resolute 
now in this Commission than we were before. But if you look at 
it historically it is not a good grade and we have not been 
part of the solution. We have been part of the problem.
    Senator Inouye. Mr. Chairman, I am ready to vote for these 
two.
    The Chairman. Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Mr. Copps, I cannot tell you how much it warms my heart to 
hear you looking to Ronald Reagan for regulatory guidance.
    I very much appreciate both of you being here, but more 
importantly putting in the time to meet with Members of 
Congress. Both of you have taken the time to come to my office 
to talk about a number of issues, some of which I would like to 
go over again. But it is very time-consuming. The issues are 
complex.
    One of the nice things about this Committee from a member's 
standpoint is that a lot of the issues we work on cut across 
party lines. The bad news for you is that it does not matter 
whether you are a Democrat or a Republican nominee; you are 
going to get it from both sides, and that does make your job 
difficult. But both of you obviously have dedicated yourselves 
to public service and that is very much appreciated, I think.
    Mr. Copps, in your opening statement you said that you 
would work on the Commission, continue on the Commission 
working to achieve, ``as thorough an understanding of 
congressional intent as I can muster.'' Do you mean to suggest 
that in the past Congress has been less than crystal clear in 
the legislation we have passed?
    Mr. Copps. I would only suggest that as time goes on and 
technology evolves in a revolutionary way and markets change 
and services change, that from time to time we all need to take 
a look at the new world around us.
    Senator Sununu. Maybe you should be in the Foreign 
Relations Committee pursuing a diplomatic post.
    I appreciate the fact that we are not always as clear as we 
should be. I think one area that has shown itself to fit in 
that category is universal service. I really just want to make 
a comment, picking up on some of the points that you made. You 
talked about three areas. I think as we do a reform bill it is 
very important that we do what we can to make this program work 
better. There are things about the program many of us like, 
things about the program many of us dislike, but I do not 
believe it works nearly as effectively as it can, keeping in 
mind the original intent.
    You mentioned three areas: contribution, and I think the 
points you made are very good. We need to revise and reform the 
contribution methodology, broaden the base, lower the average 
per-line charge that I think disproportionally penalize some of 
the people that this is intended to benefit. The single line 
subscriber who might be older, on a fixed income, lower means, 
they are still paying a charge and oftentimes it is 
disproportionately high.
    So I think we need to broaden the base. I support a 
methodology based on numbers. I know that is something the 
Commission is looking at. But the contribution methodology 
reform is extremely important.
    Second is distribution, and I think this is equally 
important: improving the way we distribute the resources, 
keeping in mind the original Congressional intent, which I 
think was fairly clear. High-cost areas and areas of 
disproportionately low incomes, that is the intent. In creating 
the complexity in the distribution system, I think we have 
either made the program less effective or created situations 
where those two overriding concerns are not always first and 
foremost in the program.
    I do not think we need eight or ten different streams of 
distribution support for universal service. I think it could be 
much more effective if we reform the distribution, again 
keeping in mind what the original objectives of the program 
were.
    Then the last is probably the area that is more 
challenging, which is exactly what do we mean by universal 
service, what are the services or the technologies or the 
products, consumer products, that we are subsidizing here. It 
is a little bit more challenging and I think that will be an 
important part of the debate. But I do think there ought to be 
an opportunity for states to participate to a greater extent 
than they have in helping to decide exactly how these resources 
can be used.
    We should not just assume that Members of Congress or the 
Commission are the only ones that could possibly know how these 
universal service funds can be best used in the State of 
Tennessee or the State of Alaska or the State of Hawaii. I 
think there are going to be different services and needs and 
infrastructure that ought to be receiving funds in order to 
meet whatever goals you or I might have in mind.
    So I just want to make those three points. I think they are 
roughly in keeping with the concerns you raised and concerns 
others have raised, but all of those are much more important 
than the size of the fund. I can imagine an excellent program 
and one that someone who is fairly deregulatory minded like me 
would support that costs $10 billion, which is far larger than 
the current program. I can also imagine a program that is a 
disaster, that does not really get assistance to those high-
cost states, to the rural states, to states with higher levels 
of income, that only cost $5 billion, and just does not work, 
does not achieve our goals, does not meet Congressional intent.
    So I think we need to focus on the parameters you laid out. 
First and foremost, obviously we want to have a fund that is 
fiscally responsible. But the way we handle it is much more 
important.
    Let me move to Voice Over IP, something we talked about in 
my office. There are a lot of VOIP companies that have done all 
that they can to date and will continue to do all that they can 
to comply with the FCC's E-911 VOIP ruling and obligation. 
There are a number of technical limitations and there are also 
some operational problems for which the VOIP providers are not 
responsible that have made it difficult for them to hit all of 
the deadlines.
    First, I want to make sure we are working on the same wave 
here. You believe these companies, do you not? You do not think 
they are misleading or lying about the technical challenges or 
the organizational challenges associated with getting access to 
the routers?
    Mr. Copps. No, I do not.
    Senator Sununu. The marketing ban that has been proposed by 
the FCC, though, is something that strikes me as quite unusual, 
actually preventing a company from marketing a consumer 
product. Can you give any examples of other areas or other 
cases where the FCC has imposed a marketing ban like the one 
that is affecting the VOIP providers?
    Mr. Copps. No, and I would note that we did not vote on 
this particular aspect of what we are doing. I understand 
people who express doubts about imposing a marketing ban. By 
the same token, though, I have doubts about a company who would 
offer service without this kind of protection that the public 
expects. I think we ought to be asking them that question, too.
    But a lot of the large companies now, with only a few 
exceptions, are not marketing while they develop the capacity 
to do this. We have come a long, long way in the 120 or however 
many days it was since last July that the Commission really 
took this up in a strong way and came with these requirements. 
We have gotten there, I think, with a lot of cooperation. I 
think there has been considerable flexibility. There was 
initial talk we are going to disconnect people, but I think the 
Chairman and the bureaus have shown flexibility in making sure 
that did not happen.
    But we have got to get to a situation where we do not have 
a repeat of what happened in Texas or what happened in Florida, 
when somebody picks up that phone and is confident that that 
phone, like any other phone, has the capacity to connect them 
to E-911 and it does not. This whole public safety and homeland 
security thing has to be much more of a priority at the 
Commission. I think we are doing a good job recently, but we 
have really got to jump on it.
    I think we need to get this done. I think we are making 
progress and I think we will get it done.
    Senator Sununu. I agree that we are making progress. I 
certainly agree that it is important and it is something that 
the Commission should focus its attention on. But my concern is 
that we, one, are not punitive or discriminatory in terms of 
setting goals or objectives and then working to implement them.
    A case in point: Is all wireline service compatible with 
providing E-911 coverage and capability?
    Mr. Copps. The answer is no, but I have tried to be as 
tough on those carriers as I am here. We should remember since 
the mid-1990s wireless has been able to deliver a 911 call to 
the local PSAP.
    Senator Sununu. I am not speaking----
    Mr. Copps. I know you are talking about the----
    Senator Sununu. But I am talking about wireline.
    Mr. Copps. Wireline, I am sorry.
    Senator Sununu. I am talking about traditional wireline, 
that not all wireline providers have E-911 service. In fact, 
not all wireline providers have 911 service. There are still 
over 100 counties in America where you have to dial ten digits 
to get emergency service, and I think we should work to help or 
assist or make sure that we have good emergency response 
systems in those areas, as we should for wirelines or VOIP, but 
we should not be discriminatory and punitive in the solutions 
we put out.
    I believe that you appreciate those points. I hope you will 
take them to heart. I certainly cannot speak to exactly how Ms. 
Tate would deal with these issues. We had the opportunity to 
speak about them as well. As a commissioner in Tennessee, I 
think she had to deal with a lot of rural areas that do not 
necessarily have the 911 service that we would like to see. But 
we want to make sure--I would like to make sure that you are 
not being discriminatory in your approach.
    I would like to ask both of you, make sure both of you are 
aware of the nature of the legislation that passed this 
Committee unanimously just a few weeks ago, it dealt with E-911 
for IP providers, that provides a waiver process for the FCC 
rules, which would include the marketing ban. I think it 
provides those waivers in a very reasonable way. Is it fair to 
say that both of you are familiar with that?
    Mr. Copps. I am aware of that. I know it talks about access 
to routers. I know we talked about it when we voted on all of 
this, and I stated that the companies had to have the tools if 
we were going to have the expectation that they were going to 
be in compliance. I welcome what the Committee bill does on 
liability. I do not think the Commission has too much authority 
there, so we are glad for the help from there.
    I think we will look at the waiver process. At the risk 
of--I hope I am not being confrontational, but I have a doubt 
about 4-year waivers when we get into something like this. 
There is always the opportunity for companies to get a waiver. 
There are conditions perhaps where it would be appropriate to 
grant a waiver. But I think we have to look at the time and set 
that against the progress that is going to be made. I think in 
a year or two all this is going to be behind us.
    Senator Sununu. I love that sense of optimism. That is 
Ronald Reagan's sense of optimism talking there, too.
    Mr. Copps. I love it too.
    Senator Sununu. One final question, and I appreciate I have 
asked quite a number of questions already, but for Ms. Tate. I 
think Commissioner Copps mentioned the idea of mediation. I 
believe this is something that you worked on to quite a degree 
in Tennessee. You advocated in a piece that you wrote that 
consumer complaints and carrier-to-carrier disputes for IP 
could be resolved through an FCC-led arbitration process based 
on a best and final approach similar to, not identical to but 
similar to, the arbitration process in baseball.
    This is something that I have taken a look at and we are 
looking at crafting IP legislation. Could you talk a little bit 
about what the value of this kind of an arbitration process is 
dealing with regulations or complaints, and do you think that 
it could be used for circumstances even beyond IP, Voice Over 
IP?
    Ms. Tate. Well, I am certainly a strong advocate, as I said 
before, of alternative dispute resolution, and we even touched 
on this a little bit, and I am hopeful and optimistic, as 
Commissioner Copps and you have noted, that carriers would be 
able to come to some kind of agreement between themselves, and 
that this might be in order to not have the government enter 
into any of that.
    So I would love to sit down and talk about this further. I 
do not really have anything specific to lay out here today. But 
it was really just more of the concept of the carriers 
agreeing. It is to their advantage to work these things out.
    Just as an aside, yesterday I wanted to--I am sorry Senator 
Alexander is not here to hear me say this, but--``Find the good 
and praise it.'' Yesterday we had all of the VOIP providers 
come to Tennessee to make presentations on where they were on 
meeting these deadlines. So we invited them to come; we did not 
order them to come. They are not required to come through any 
kind of legal authority. But they all came, and they have made 
tremendous progress. Vonage and BellSouth have actually come to 
an agreement, which was something that had not happened before.
    So I guess just to say, I am really optimistic, based on 
what is going on in Tennessee. So I would love to continue to 
talk with you about some of these more specific provisions and 
whether or not we might be able to craft some language for a 
bill.
    Senator Sununu. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    I just might say parenthetically to the Senator from New 
Hampshire, I think that this waiver business depends on who the 
entity seeking a waiver is going to compete with. If they are 
going to compete with someone who is providing 911 and want an 
exemption from it, it gives them basically an economic 
advantage to get the waivers. I would oppose such waivers at 
that time.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Dr. Copps, I would like to start with you if I may, and 
that is just a general question because, as you are well aware, 
there has been a lot of discussion here in the Committee and in 
the hallways around the Senate about a broad telecom rewrite. 
In fact, I know that many were hopeful that this Committee 
would take that up this year. We have not done that, at least 
not in full, and many are hopeful we will try to do that next 
year.
    But my question for you is, from your perspective, given 
your expertise and familiarity with the lay of the land today 
and the state of the law today, do you think that the Congress 
should pass a broad telecom rewrite or do you think we have 
enough existing law on the books today and maybe Congress 
should pass some tweaks or some less broad, more narrowly 
tailored type telecom legislation, or should we pass nothing at 
all. I would like to get your thoughts on that.
    Mr. Copps. Well, if I knew it was going to be delivered and 
passed and produced, I would take the generic wholesale rewrite 
that delves comprehensively into a lot of these problems. But I 
know it demands a certain correlation of political forces and 
elsewise to get that done, so we may have to settle for the 
tweaks.
    But as I indicated earlier, I think in just about every 
area under the jurisdiction of the Commission and the Committee 
I think there is a need for some elaboration. We talked about 
the need on broadband: is broadband going to be a part of 
universal service? That is a big question that goes to the 
fundamental purpose of universal service. Is it really going to 
be all about taking these new technologies and making them 
available to everybody in the United States no matter where 
they live, and when they use these new technologies do they 
have a right to expect some of the protections that were 
provided in the era of telecom and the telephone companies--
consumer protection, disability rights, and these other things. 
We have got to make that clear.
    That may already be in the law. I think I am happy going 
forward and my interpretation is that it is there, but I do not 
know that I could get a majority for that. So I think there has 
to be some additional clarity there. We have got to fix 
universal service, although that may be something that we can 
kind of isolate on the contribution methodology and work on 
that.
    But then we have to do something, I think, to clarify the 
media ownership rules and where are we going in the media. I 
would just say as a general statement, I am also a small ``d'' 
democrat. I believe if you give the people the information they 
need and the facts they need that more often than not, maybe 
not always but more often than not, the American people will 
come down on the right side of a question and make an 
intelligent decision.
    I think, in some degree because of media consolidation, 
that we are skating perilously close to denying them that kind 
of information. I think we are tampering around the edges of 
hurting our democracy. Some may say this is overblown rhetoric, 
``there he goes again,'' but I feel this really deeply. I think 
it has already had some bad effects in harming localism and 
diversity and competition.
    So we have got to do that. And we have to--and we were 
talking about this a little bit earlier--reinvigorate some of 
the old public interest obligations. There are almost none 
right now. Thirty or forty years ago if a station wanted to get 
a license, they had to meet an explicit list of different 
things that they are doing. Are they going out to the 
community, finding out what people want to hear and see, doing 
children's programming, public events, community events. That 
is all basically gone. You mail in a postcard and every 8 years 
you get your license.
    I think the people expect more than that, people I have 
talked with in going around the country expect more than that. 
They own the airwaves. They want those airwaves to serve the 
public interest. Nobody is denying a broadcaster the right to 
make a good living by the use of those airwaves, but there is a 
precious quid pro quo involved for the use of those airwaves. 
That is serving the public interest, and we need to emphasize 
that again.
    We talked a little bit about maybe doing something with the 
Open Meeting Act at the Commission so the Commissioners can 
meet together. Those were some of the things I would like to 
see changed. If it really does open up into a comprehensive 
exercise, we can probably produce several more suggestions.
    Senator Pryor. Ms. Tate, do you have any views on whether 
there should be a comprehensive piece of telecom legislation or 
just more isolated pieces or nothing at all? Do you have any 
views on that?
    Ms. Tate. Well, I want to agree with what Commissioner 
Copps has said. These are changes that we need, if confirmed, 
to be able to function as an agency. The concern about the 
sunshine law. And I agree with him as well, it is hard to say, 
yes, I would definitely be for an entire rewrite when you are 
not sure what all might end up in that. But I think that he has 
outlined some broader policy principles.
    I would want to underscore what he said about persons with 
disabilities and some of the other responsibilities that he 
outlined. I think it is really important, too, to recognize 
that while everybody here is connected to a Blackberry, not 
everybody across America is. There has got to be some kind of 
transition between now and where we all see we are going.
    So thank you.
    Senator Pryor. Good.
    Dr. Copps, you may have covered this earlier and I may have 
missed it, but do you know what the rate of broadband 
deployment is in the U.S. today? Is there a number out there?
    Mr. Copps. I do not have the exact number, but I can tell 
you that broadband deployment generally is not anywhere where 
it should be. The ITU pegs the United States as number 16 in 
the world in penetration of broadband. I do not think that is 
acceptable. Other countries obviously have different 
demographics. I do not think you can compare rural Alaska or 
Hawaii or rural areas in any State with maybe an apartment 
building in Seoul, Korea, or Tokyo, so we cannot expect that to 
be equal.
    But I think there are lessons to be learned. We have 
fiddled around until now at the Commission, defining broadband 
as 200 kilobits up and down. The world moved beyond that a 
long, long time ago. We are finally catching up.
    We looked at broadband penetration and said, oh, one person 
in this zip code has broadband, ergo deployment is proceeding 
in a reasonable and timely fashion, when in truth it is not. So 
we have got to be realistic.
    I cannot get you a good figure on broadband because we have 
not deployed the analytical tools that we need. I know we need 
to do more and I know we need to do better.
    Senator Pryor. Well, is getting to 100 percent, is that a 
reasonable goal?
    Mr. Copps. I do not know. It should be a goal. It should be 
our goal. I do not know if we can achieve it. You never get 100 
percent on things. But I do not think that young kid in the 
tribal village or the Alaskan village or the countryside 
anywhere or the inner city is going to make it in the 21st 
century without high-speed broadband.
    Some people talk about the E-rate program for schools and 
suggest it has done enough, so why are we still supporting it? 
I do not think we should have our kids in schools where there 
is dial-up Internet when everybody else in the world is working 
on broadband. We are just not going to make it that way. We are 
not going to make it.
    Senator Pryor. Let me change gears if I can. In the last 
few days, due to the work of the Chairman and Ranking Member 
here, the cable industry came out with a proposal about family 
tier. If we just ignore the specifics of their proposal, we do 
not have to get into the specifics of their proposal, but in 
your view is family tier the right approach? Is that the right 
approach that we should be looking at, or is there another 
approach that in your view is better?
    Mr. Copps. I think there are a number of approaches and 
options that have been suggested. If the industry is most 
interested in this particular option and willing to move ahead, 
I think we ought to give it a try. As Chairman Martin told the 
Committee last week, there are other options, like a la carte 
cable. Some questions have attended that about whether it is a 
viable business plan or not, but it certainly brings consumer 
choice and consumer options, and I think we need to look at 
that.
    These things may never really take off, and that's why I am 
not willing to say no legislation ever, because I think it 
might one day be called for. These things do not just happen 
easily and I think the industry, with Mr. Valenti up here the 
other day, has come a long ways. But we are not there yet. 
People want this settled. Jack is one of the most delightful 
people in the world and I am proud to call him a friend, but I 
think when he suggest that all of these polls universally say 
that people do not want the government to do anything, I do not 
think he has looked at all those polls. For example, a 2004 
Kaiser poll reported that over 60 percent of the American 
people want the government to do something.
    It depends how you ask the question. ``Are you in favor of 
trampling the First Amendment? '' What do you expect people to 
say? Of course not. But, ``are you in favor of the government 
taking some reasonable steps to control this? '' Everybody is 
going to say yes. You have got to be careful on those polls.
    Senator Pryor. Well, let me ask about the Commission just 
for a moment. I know that you have been very concerned with 
media ownership and consolidation of ownership. As I understand 
it, there was a challenge to what you did and it went maybe to 
the Third Circuit and was overturned. Is that right?
    Mr. Copps. That is correct.
    Senator Pryor. As I understand it, part of the reason it 
was overturned is--I have not read the decision, but the Third 
Circuit made the determination that there was not enough 
evidence to support what you were trying to do. One question I 
have for you: Is that a function of there really is not enough 
evidence out there or is it a function of the fact that you are 
limited in your ability to collect the evidence and collect the 
data that you need to do your job?
    Mr. Copps. It is a function of the previous Commission not 
being willing to go out and ask the questions that need to be 
asked on media ownership, such as is there a relationship 
between the indecency that we were talking about a minute ago 
and media consolidation. You can make an argument that there is 
because these big companies are so focused on selling products 
to 18 to 34-year-olds and maybe that dictates the kind of 
programming.
    I do not think we have the answer to that, although we have 
some indication from a study done by Jon Rintels and Phil 
Napoli that indicate there is a connection. But I asked, I 
begged, for us to look at that, before we voted in 2003. We did 
not do that. Surely we cannot go to the courts with something 
like that diversity index that the previous Commission came up 
with, that could not differentiate between a network station 
and a weekly paper and a home shopping channel, and expect a 
court to say: Oh, yes, the FCC has really done their work here; 
congratulations.
    We have got to get the evidence. It is not rocket science. 
It is out there. We can get it and do it and satisfy the 
courts.
    Senator Pryor. And you have the resources to collect the 
data?
    Mr. Copps. Well, that is an interesting question. It is a 
question of priorities, but I think we should be doing some 
studies and contracting out and making sure that we are making 
use of other information that is out there, peer-reviewed 
studies on media consolidation. Take a little time to do that. 
Then the other way to find out what is going on is what I tried 
to do and Commissioner Adelstein tried to do last time. That is 
to go out and talk to the American people. Do not stay in our 
offices down there in Southwest D.C. and just read the usual 
submissions from the usual people, but instead see what is 
happening in the local media markets. Boy, you do that and you 
are surprised, and you see what is happening to localism and 
diversity and competition in Arkansas and everywhere else.
    Senator Pryor. Thank you.
    Mr. Chairman, that is all I have. Thank you.
    The Chairman. Well, thank you both very much. We appreciate 
your candid answers to the questions.
    Senator Inouye, do you have anything further?
    Senator Inouye. No.
    The Chairman. We are going to try and move these 
nominations out of the Committee as rapidly as possible. We 
congratulate you both on your nominations and hope to see if we 
can get you confirmed before we go home for Christmas. Thank 
you very much.
    [Whereupon, at 11:37 a.m., the Committee was adjourned.]

                            A P P E N D I X

    Prepared Statement of Hon. William H. Frist, U.S. Senator from 
                               Tennessee

    Mr. Chairman, I appreciate the opportunity to express to the 
Committee my support for the nomination of a fellow Tennessean, Deborah 
Taylor Tate, to serve as a member of the Federal Communications 
Commission (FCC).
    Debi Tate is a native of Columbia, Tennessee and grew up in 
Murfreesboro, just outside of Nashville. She received both her 
undergraduate (B.A.) and law degrees from the University of Tennessee-
Knoxville.
    Ms. Tate has a long and distinguished career in public policy. She 
began her professional career as an attorney and senior policy advisor 
to then-Tennessee Governor Lamar Alexander, and later served as a 
policy advisor to Governor Don Sundquist. In 2002, Governor Sundquist 
appointed Ms. Tate to serve as a Director of the Tennessee Regulatory 
Authority (TRA), which regulates privately-owned telecommunications and 
utility companies in Tennessee. She served as Chairman of the TRA from 
2003-2004.
    As a TRA Director, Ms. Tate has been involved in telecommunications 
policy at both the state and federal levels. She was appointed by the 
FCC Chairman to the Federal-State Joint Board on Advanced 
Telecommunications Services, and she is an active member of both the 
Southeastern Association of Regulatory Utility Commissioners (SEARUC) 
and the National Association of Regulatory Utility Commissioners 
(NARUC).
    On a personal level, my family and I have known Debi for years, as 
she lives near us in Nashville and is an elder at our church. She is 
active in the community in Nashville, serving on the boards of 
Vanderbilt Children's Hospital and Centerstone, Inc., the largest 
mental health provider in Tennessee, among others. She is also a 
founder of the Renewal House, a recovery residency for women with 
addictions and their children.
    I am proud that President Bush has nominated such an accomplished 
Tennessean to serve on the Federal Communications Commission, and I 
know that Debi Tate will serve with dedication and distinction. I want 
to thank Chairman Stevens for scheduling a hearing on her nomination so 
expeditiously, and I look forward to seeing her confirmed by the Senate 
and starting work at the FCC.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Deborah Taylor Tate

    Question 1. What do you believe the goals of Universal Service 
should be?
    Answer. The goals of Universal Service, as mandated by the 
Telecommunications Act of 1996 (1996 Act), are to promote the 
availability of quality services at just, reasonable, and affordable 
rates; increase access to advanced telecommunications services 
throughout the Nation; advance the availability of such services to all 
consumers, including those in low income, rural, insular, and high cost 
areas at rates that are reasonably comparable to those charged in urban 
areas. If confirmed, I am committed to working with Congress to explore 
how best to promote these objectives.

    Question 2. What do you believe the value of the Universal Service 
E-rate program for schools and libraries to be?
    Answer. As a state Commissioner, I saw first hand the benefits of 
the E-rate program for classrooms throughout Tennessee and, if 
confirmed, would be committed to advancing the 1996 Act requirements 
that all schools, classrooms, rural health care providers and libraries 
should have access to advanced telecommunications services.

    Question 3. Do you support the E-rate program for schools and 
libraries?
    Answer. Yes. See answer to Question 2 above.

    Question 4. Which providers do you believe should be required to 
contribute to the Universal Service Support Mechanism?
    Answer. The 1996 Act requires all telecommunications carriers that 
provide interstate telecommunication services to contribute, on an 
equitable and nondiscriminatory basis, to the Universal Service Fund 
(USF). According to the 1996 Act, ``[t]he Commission may exempt a 
carrier or class of carrier from this requirement if the carrier's 
telecommunications activities are limited to such an extent that the 
level of such carrier's contribution to the preservation and 
advancement of universal service would be de minimis.'' And, ``[a]ny 
other provider of interstate telecommunications may be required to 
contribute to the preservation and advancement of universal service if 
the public interest so requires.''

    Question 5. What impact do you believe the Universal Service 
Support Mechanism, and the E-rate program specifically, has on 
universal broadband deployment?
    Answer. I believe that the Federal Communications Commission (FCC 
or Commission) should do all it can to facilitate investment in 
broadband infrastructure throughout the Nation. A key principle for the 
preservation and advancement of universal service in Section 254 of the 
1996 Act is that access to advanced telecommunications and information 
services should be provided in all regions of the Nation. In addition, 
Section 254 states that elementary and secondary schools and 
classrooms, health care providers and libraries should have access to 
advanced telecommunications services. If confirmed, I am committed to 
working with my FCC and state colleagues to explore how best to promote 
these objectives.

    Question 6. Recently, through the efforts of Chairman Stevens and 
others, Congress passed a temporary exemption of the Anti-Deficiency 
Act (ADA) through December 31, 2006 for Universal Service programs. Do 
you believe the universal service telecommunications fees are ``federal 
funds'' and therefore subject to the Anti-Deficiency Act?
    Answer. I understand that the question of whether USF monies are 
``federal funds'' is a complex question dependent upon federal 
accounting laws and requirements, and other factors. I have not had the 
opportunity to study this issue in my capacity as a state official. If 
confirmed, I will carefully evaluate this issue. Certainly, to the 
extent that Congress specifies a legal status for these funds, I will 
adhere to the will of Congress.

    Question 7. Express your position on permanently exempting 
Universal Service from the Anti-Deficiency Act.
    Answer. I believe the determination surrounding exempting the USF 
from the Antideficiency Act is a congressional decision to make. If 
confirmed, I will adhere to the will of Congress.

    Question 8. Discuss whether you agree that a robust Universal 
Service System and E-rate program are needed to speed broadband 
deployment consistent with the national broadband goals set-out by 
President Bush.
    Answer. Yes. See answer to Question 5 above.

    Question 9. What is your definition of indecency?
    Answer. Title 18 of the United States Code, Section 1464, prohibits 
the utterance of ``any obscene, indecent or profane language by means 
of radio communication.'' The Commission has defined indecent speech as 
material that, in context, depicts or describes sexual or excretory 
activities or organs in terms patently offensive as measured by 
contemporary community standards for the broadcast medium. I would 
apply this definition, which calls for a contextual analysis, which 
carefully balances the government interests in regulating indecent 
speech with the important principals underlying the First Amendment to 
the United States Constitution.

    Question 10. How would you propose to enforce it?
    Answer. If confirmed, I will do everything in my power to encourage 
my FCC colleagues to investigate and resolve all complaints in a timely 
manner. Moreover, I applaud the Commission for its recent creation of 
Form 475(b), which, for the first time, allows consumers the 
opportunity to use a specific form to delineate complaints surrounding 
obscene, profane, and/or indecent programming.

    Question 11. What are your views on local program insertion by 
satellite radio on terrestrial repeaters?
    Answer. I have not had the opportunity to study this issue in my 
capacity as a state official. Local program insertion by satellite 
radio providers might offer public interest benefits, including 
increased competition in local radio markets. If confirmed, I am 
committed to working with my FCC and state colleagues to carefully 
evaluate this issue.

    Question 12. If protection/insulation of children from questionable 
content is the rationale for indecency standards and the defining 
distinction is paid-for service versus free over-the-air broadcasting, 
how do you reconcile the fact that the vast majority of children have 
equal access to both? (i.e. cable TV's penetration coupled with the 
fact that broadcast stations sit side-by-side with the likes of HBO---
AND satellite radio can be purchased/used by underage listeners)
    Answer. I have not had the opportunity to study this issue in my 
capacity as a state official. As a mother, I understand that children 
watching cable television do not distinguish between broadcast stations 
and cable networks as they channel surf. This is cause for concern 
since, as you note, the law restricting indecent material does not 
apply to cable television. Certainly, if Congress enacts a law 
restricting indecency on non-broadcast video programming, I will 
enforce that law.

    Question 13. How do you define ``in the public interest"? And would 
you agree that audience size can be a good indicator of service 
regardless of the content? If not audience, who?
    Answer. It is my understanding that the Commission has broad 
discretion in determining whether a broadcaster has served the public 
interest, convenience and necessity. Practically speaking, it would 
seem that audience size may serve as one indicator that a broadcaster 
is providing programming of interest to its community. Although I have 
not had the opportunity to study this issue in my capacity as a state 
official, if confirmed, I am committed to working with Members of this 
Committee and my FCC colleagues to carefully evaluate this issue.

    Question 14. What are your views regarding the consolidation of 
media?
    Answer. I have not had the opportunity to study this issue in my 
capacity as a state official. Given the important role that the media 
plays in promoting the marketplace of ideas and enhancing our 
democratic society, if confirmed, I am committed to working with my FCC 
colleagues to ensure that our actions further competition, localism, 
and diversity in the media market.

    Question 15. Which is the higher priority---increasing the number 
of outlets via LPFM or protecting the signal integrity of the stations 
that are already licensed and serving the public?
    Answer. When evaluating priorities, the Commission should take into 
consideration how that action would impact the public. The Commission 
should take into account whether members of the public would lose 
access to an existing broadcast service, which may offer very localized 
communities and under-represented groups within communities the chance 
to be heard.

    Question 16. What are your thoughts on multicast must carry?
    Answer. I understand that the Commission has addressed this issue 
twice and found that cable operators are not required to carry more 
than a single digital programming stream from any particular 
broadcaster. Moreover, the Commission has pending before it a petition 
for reconsideration of its most recent decision addressing this issue. 
Although I have not had the opportunity to study this issue in my 
capacity as a state official, if confirmed, I will review this petition 
and the arguments made for and against multicast must carry carefully.

                                  <all>

</pre></body></html>
